HHS/OIG-Audit--"Operation Restore Trust Skilled Nursing Facility Review Conducted at Daytona Nursing Home, Daytona Beach, Florida, (A-04-96-01137)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Skilled Nursing Facility Review Conducted at Daytona Nursing Home, Daytona Beach, Florida," (A-04-96-01137)
December 13, 1996
Complete
Text of Report is available in PDF format (1.22 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The primary objective of the review was to evaluate the medical necessity of the care and services provided and the reasonableness
of the charges and reimbursements made during the period from November 1, 1994 through December 31, 1995.
The Operation Restore Trust reviewers questioned $76,130 in charges reported for the 12 sampled beneficiaries in our study.
This amount consists of $75,472 related to physical occupational and speech therapy services rendered; $234 in unallowable
pharmacy charges, $312 in inappropriate physician payments and $658 in other services billed to the Part B carrier. Therefore,
we are recommending an adjustment of the above charges. In addition, we request that a focused review of all rehab therapies
and the use of standing orders for these therapies be conducted by the fiscal intermediary and State agency in order to
recoup overpayments made to this skilled nursing facility and to implement corrective action by the facility.